\

i

Nb.

IN THE
SUPREME COURT OF THE UNITED STATES

DAMON GRAHAM,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent.

PROOF OF SERVICE
I, Damon Graham, do swear or declare that on this date, April
27, 2020, as required by Supreme Court Rule 29 I have served the
enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION
FOR WRIT OF CERTIORARI on the party to the above proceeding by hand
delivering to prison officials an envelope containing the above
documents, with postage prepaid and affixed, for first-class mail
to the following at the address listed below:
Solicitor General of the United States
Room 5614
Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001
I, Damon Graham, declare under penalty of perjury that the foregoing
is true, correct and complete pursuant to 28 U.S.C. § 17:46.
Executed on April 27, 2020.
s/
U1X1____________
Damon Graham
—
#13787-014
FCI Ray Brook
P.O. Box 900
Ray Brook, New York 12977
S

